OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/NEPAL’S
HEALTH ACTIVITIES
AUDIT REPORT NO. 5-367-08-010-P
September 26, 2008




MANILA, PHILIPPINES
Office of Inspector General


September 26, 2008

MEMORANDUM

TO:                  USAID/Nepal Mission Director, Beth Paige

FROM:                Regional Inspector General/Manila, Catherine M. Trujillo /s/

SUBJECT:             Audit of USAID/Nepal’s Health Activities (Audit Report No. 5-367-08-010-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments to the draft report and included the comments (without attachments)
in appendix II.

This report contains four recommendations to assist USAID/Nepal to improve its oversight of the
Nepal Social Marketing and Franchise Project. Based on the information provided by the
mission in response to the draft report, we determined that final actions have been taken on
Recommendation Nos. 1, 3, and 4 upon issuance of this report. In regard to Recommendation
No. 2, a management decision has been reached and a determination of final action will be
made by the Audit Performance and Compliance Division upon completion of the planned
corrective action.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd., 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


Audit Findings ................................................................................................................. 5 


Were USAID/Nepal’s health activities achieving 

planned results, and what has been the impact?

     Performance Management Plan 

     Lacked Required Elements ......................................................................................... 8 


     Performance Management Plan Was Revised 

     Without Formal Mission Approval ............................................................................. 10 


     Reporting Requirements Were Revised Without 

     Formal Mission Approval........................................................................................... 11 


Evaluation of Management Comments ....................................................................... 13 


Appendix I – Scope and Methodology ........................................................................ 14 


Appendix II – Management Comments ....................................................................... 16 


Appendix III – List of 15 Critical Indicators and Results of Review ......................... 20 

SUMMARY OF RESULTS

To help the Government of Nepal provide basic health services to its citizens,
USAID/Nepal awarded a $33.8 million cooperative agreement to JSI Research and
Training Institute, Inc., to implement the 6-year Nepal Family Health Program Phase I
(program), which ended in December 2007. The purpose of the program was to improve
the delivery and use of basic public sector family planning, maternal, newborn, and child
health services (see page 3).

In addition, USAID/Nepal awarded a 3½-year contract valued at $11.2 million to
Academy for Educational Development to implement the Nepal Social Marketing and
Franchise Project (project), which will end in December 2009. The project aims to
expand service delivery and access to quality reproductive health and voluntary family
planning products through private and commercial sector strategies throughout Nepal.
Also included are many other health products and services relating to maternal and child
health care such as oral rehydration salts and basic drugs (see page 3).

The Regional Inspector General/Manila conducted this audit to determine if
USAID/Nepal’s health activities were achieving planned results, and what has been the
impact (see page 4).

USAID/Nepal’s health activities partially achieved their planned results. Of the 15 critical
performance indicators selected for review, the audit determined that 5 indicators met
and 3 partly met their planned results while 1 did not meet its planned results.
Achievement of planned results for the remaining 6 indicators could not be determined
because the indicators (1) had targets that were set to be achieved at the completion of
the project, (2) lacked targets entirely, or (3) lacked baseline values against which to
measure targets. The review of the 15 critical indicators showed that the weaknesses
identified pertained to the Nepal Social Marketing and Franchise Project (see page 5).

Regarding the eight indicators that met or partly met their planned results, the activities
achieved an impact that included Vitamin A supplementation coverage and pneumonia
treatment. The activities also ensured that family planning and maternal and child health
commodities were available at health facilities and at the community level, the lowest
level of the distribution zone (see page 5).

For the one indicator that did not meet planned results and the six indicators in which the
achievement of planned results could not be determined, the problem was caused by a
performance management plan that was not adequately developed and reviewed by
both the contractor and the mission. Furthermore, the audit identified other issues such
as revisions made to the performance management plan and to the reporting
requirements without the mission’s formal approval (see page 7).

The audit makes four recommendations to improve USAID/Nepal’s oversight of the
Nepal Social Marketing and Franchise Project (see pages 10—12). USAID/Nepal
generally agreed with the findings and recommendations. Based on the mission’s
response to the recommendations, the audit determined that final actions were taken on
Recommendation Nos. 1, 3, and 4 and a management decision was reached on
Recommendation No. 2.


                                                                                          1
USAID/Nepal’s written comments are included in their entirety (without attachments) in
appendix II.




                                                                                    2
BACKGROUND

After a decade-long Maoist insurgency in Nepal, progress has been tenuous as the
country has struggled to build a viable and representative government, restore law and
order, and address the grievances of the country’s ethnic minorities and disadvantaged
groups. The Government of Nepal’s ability to provide basic services to its citizens has
become a key postconflict priority.

To help the Government of Nepal provide basic health services to its citizens,
USAID/Nepal awarded a $33.8 million cooperative agreement to JSI Research and
Training Institute, Inc. to implement the 6-year Nepal Family Health Program Phase I
(program), which ended in December 2007.1 The purpose of the program was to
improve the delivery and use of basic public sector family planning, maternal, newborn,
and child health services.

In addition, USAID/Nepal awarded a 3½-year contract valued at $11.2 million to
Academy for Educational Development to implement the Nepal Social Marketing and
Franchise Project (project), which will end in December 2009. The project aims to
expand service delivery and access to quality reproductive health and voluntary family
planning products through private and commercial sector strategies throughout Nepal.
Also included in the project are many other products and services relating to maternal
and child health care such as oral rehydration salts and basic drugs.

Overall, USAID/Nepal’s health activities aimed to accomplish the following goals:

•	 Expand access to and the use of quality, voluntary family planning services.

•	 Reduce child mortality by increasing access to quality selected maternal and child
   health services.

•	 Support the efforts of Nepal’s Ministry of Health to decentralize health care services
   from the national to the district level.

•	 Prevent the spread of and control HIV/AIDS2 by enhancing the prevention-to-care
   continuum and treating other sexually transmitted infections among high-risk
   groups.3

USAID/Nepal’s Office of Health and Family Planning is responsible for managing the health
activities. For the program, the mission had obligated $33.8 million and disbursed $31.4
million as of December 31, 2007. For the project, the mission had obligated $3.8 million
and disbursed $2.4 million as of September 30, 2007.



1
  The audit did not cover Phase II of the program, a $30 million cooperative agreement that
began in December 2007.
2
  Human Immunodeficiency Virus/Acquired Immune Deficiency Syndrome
3
  The audit did not cover services related to HIV/AIDS because it focused on services that were
common to the program and the project: family planning and maternal and child health services.


                                                                                             3
AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of the fiscal year
2008 audit plan to answer the following question:

•	 Were USAID/Nepal’s health activities achieving planned results, and what has been the
   impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      4
AUDIT FINDINGS

USAID/Nepal’s health activities partially achieved their planned results. Of the 15 critical
performance indicators selected for review, the audit determined that 5 indicators met
and 3 partly met their planned results while 1 did not meet its planned results.
Achievement of planned results for the remaining 6 indicators could not be determined
because the indicators (1) had targets that were set to be achieved at the completion of
the project, (2) lacked targets entirely, or (3) lacked baseline values against which to
measure targets.

The audit covered family planning and maternal and child health activities and commodities
provided under USAID/Nepal’s Nepal Family Health Program Phase I (program) and Nepal
Social Marketing and Franchise Project (project) implemented by JSI Research and
Training Institute, Inc. (grantee) and Academy for Educational Development (contractor),
respectively. The designated cognizant technical officers for the two awards, with the
approval of the director of the mission’s Office of Health and Family Planning, selected 15
performance indicators—6 from the program and 9 from the project—that they deemed
critical to achieving the mission’s strategic objective of reducing the fertility rate and
protecting the health of Nepalese families. The audit team’s review of the 15 critical
indicators showed that the weaknesses identified pertained to the Nepal Social Marketing
and Franchise Project. Appendix III contains the list of the 15 critical indicators and the
results of the review.

Regarding the eight indicators that met or partly met their planned results, the activities
achieved an impact that included Vitamin A supplementation coverage and pneumonia
treatment. As well, the activities ensured that family planning and maternal and child
health commodities were available at health facilities and at the community level, the
lowest level of the distribution zone. The audit team visited five activity sites in Morang,
Nepal, where activities and commodities provided under the awards were evident, as
discussed below.

Lakantari Sub-health Post – The Lakantari sub-health post made available to the
villagers the seven basic family planning and maternal and child health commodities:
antibiotic tablets, condoms, injectable contraceptives, iron tablets, oral contraceptive
pills, oral rehydration salts, and Vitamin A tablets. The project ensured that the post was
supplied with the seven basic commodities under the indicator “Commodities available at
health offices,” which measured the percentage of health facilities that maintain
availability of seven commodities in core program districts year round. (See photo on
next page.)




                                                                                          5
                                                           Office of Inspector General
                                                           photograph of the Lakantari
                                                           sub-health post in Morang,
                                                           Nepal, where seven basic
                                                           family     planning    and
                                                           maternal and child health
                                                           commodities were made
                                                           available to the villagers.
                                                           (June 2008)




Female Community Health Volunteer’s Home – Ample supplies of the four basic
commodities relating to family planning and maternal and child health were maintained
at the home of a female community health volunteer. The project ensured that the
volunteer was supplied with the four basic commodities—antibiotic tablets, condoms,
oral contraceptive pills, and oral rehydration salts—under the indicator “Commodities
available at community level.” This indicator measured the percentage of female
community health volunteers who made three or four basic family planning and maternal
and child health commodities available to the villagers in core program districts.




                                                              Office     of    Inspector
                                                              General photograph of
                                                              the home of a female
                                                              community           health
                                                              volunteer in Morang,
                                                              Nepal, where she made
                                                              available to the villagers
                                                              four basic family planning
                                                              and maternal and child
                                                              health        commodities.
                                                              (June 2008)




                                                                                         6
Mamta Medical Hall – The Mamta Medical Hall is an authorized sangini outlet4 that
offers and administers high-quality family planning products such as the sangini
injectable contraceptive to community residents. This service was provided under the
project indicator “Number and percentage of outlets offering high quality family planning
products and services.”




                                                                    Office of Inspector General
                                                                    photograph of the Mamta
                                                                    Medical Hall, an authorized
                                                                    sangini outlet, in Morang,
                                                                    Nepal. (June 2008)




Abhod Narayan Nursery Home – This home is a private clinic that offers, along with
other health care services, high-quality family planning products such as intrauterine
devices. The home benefits from the project under the indicator “Number and
percentage of outlets offering high-quality family planning products and services.”

For the one indicator that did not meet planned results and the six indicators in which the
achievement of planned results could not be determined, the problem was caused by a
performance management plan that was not adequately developed and reviewed by
both the contractor and the mission. Furthermore, the audit identified other issues such
as revisions made to the performance management plan and to the reporting
requirements without the mission’s formal approval. These issues are discussed below.




4
  A sangini outlet is a Government of Nepal-certified medical outlet authorized to provide and
administer sangini injectable contraceptives.      Sangini is the local brand name of the
contraceptive. In Nepali, it means “lady friend.” The certification is granted after a participant
successfully completes a 2-day basic training course in the administration of the contraceptive.


                                                                                                7
Performance Management Plan
Lacked Required Elements
Summary: Contrary to USAID guidance that lists the required elements of a complete
performance management plan, the mission-approved performance management plan
for the Nepal Social Marketing and Franchise Project (project) was not complete. This
occurred because the performance management plan was not adequately developed
and reviewed by both the Academy for Educational Development (contractor) and the
mission. The absence of some of the required elements resulted in the lack of
performance information considered critical for influencing project decisions and making
resource allocations.


USAID’s Automated Directives System (ADS) 203.3.3.1 lists the required elements of a
complete performance management plan. These elements include established baseline
values and set targets for indicators used to measure progress. Furthermore, ADS
203.3.4.5 recommends that a mission set targets for the end of a strategic time period,
and may set targets for the years in between. One of the approaches to target setting,
contained in USAID’s Performance Management Toolkit, suggests setting annual
performance targets instead of starting with a final performance level and working
backward. USAID’s TIPS5 No. 7 states that sufficient detail should be provided on the
data collection or calculation method to enable it to be replicated.

The project’s mission-approved performance management plan did not include some of the
required elements of a complete performance management plan, as shown in the following
examples:

Baseline Values Were Not Established – Of the nine indicators selected for review, eight
did not have baseline values. The baseline measure establishes the reference point for the
start of the project period and becomes the formal baseline against which targets are set
and future progress is assessed.

Performance Targets Were Not Set – Three of the nine selected indicators did not have
set targets of any kind; another three indicators had only end-of-project targets. A
performance target is the specific, planned level of result to be achieved within a defined
timeframe. The lack of annual targets would hinder the mission and/or the contractor in
determining whether the indicators were on or behind schedule to achieve planned results
over the life of the project, and could prevent prompt identification and resolution of
implementation problems.

Performance Measurements’ Methodologies Were Not Clearly Defined – All nine
indicators selected for review lacked clear definitions of how performance would be
measured. The ADS states that the description of data collection should be operationally
specific enough to enable an objective observer to understand how the raw data are
collected, analyzed for meaning, and reported. Sufficient detail should be provided on the
data collection or calculation method to enable it to be replicated.


5
 TIPS are supplemental references to the ADS on how to plan and conduct performance
monitoring effectively.


                                                                                         8
The mission-approved performance management plan was not complete because the plan
was not adequately developed and reviewed by both the contractor and the mission.
According to the project’s cognizant technical officer, the mission-approved performance
management plan was essentially the same plan that the previous contractor used to
implement the project.      The current contractor reviewed the plan and submitted
suggestions and changes to the plan. For example, the current contractor changed some
of the performance targets to make them achievable. The mission’s Office of Health and
Family Planning reviewed the plan taking into consideration the current contractor’s
suggestions and changes before approving it.

The audit team contacted the mission’s Office of Program and Project Development to find
out about the extent of its involvement in the review of the project’s performance
management plan as that office would normally be involved in the development of such
plans. However, the supervisory program officer informed the audit team that her office
was not involved in the review of the plan and that they did not have any documents related
to the review. At the audit exit conference, the mission director said that the mission is
currently developing procedures that will involve the Office of Program and Project
Development in the review of performance management plans.

According to the contractor, the mission provided input into multiple drafts of the
performance management plan in order to streamline it. In addition, the mission offered
assistance in providing information that was available from the previous contractor. The
contractor added that targets were not set for indicators under “intermediate result 4”6
because those indicators are used internally by USAID managers to measure partner
performance. For indicators under “intermediate result 5,”7 no targets were set because
USAID staff routinely monitor those indicators, which are used to guide project
implementation. Regarding the indicators with end-of-project targets, the mission reviewed
and approved the performance indicators table without setting interim targets. In terms of
monitoring progress toward the achievement of indicators with end-of-project targets, the
contractor receives periodic reports from its own partners assessing performance,
identifying challenges and opportunities, and ensuring progress toward achieving overall
project goals.

Nonetheless, the absence of baseline values, performance targets, and clear definitions
on how to measure progress for established indicators resulted in the lack of performance
information considered critical for influencing project decisions and making resource
allocations. This performance information is a key for communicating results achieved or
not achieved, and for advancing organizational learning. As a result, this audit makes the
following recommendations.




6
  Intermediate Result 4 pertains to the increased capacity of local partners to design, implement
and manage state-of-the-art social marketing and social franchise programs.
7
  Intermediate Result 5 pertains to the increased collaboration between private sector, USAID
partners and Government of Nepal public sector health services in family planning and maternal
and child health.


                                                                                               9
   Recommendation No. 1: We recommend that USAID/Nepal provide guidance to
   the    Academy for Educational Development to develop a performance
   management plan that is compliant with the requirements for a complete
   performance management plan as contained in USAID’s Automated Directives
   System 203 and other USAID guidance.


   Recommendation No. 2: We recommend that USAID/Nepal develop and
   implement procedures requiring the Office of Program and Project Development to
   review performance management plans submitted by the mission’s contractors
   and grantees for compliance with USAID’s Automated Directives System 203, prior
   to approval by the cognizant technical officers.

Performance Management Plan Was
Revised Without Formal Mission Approval
Summary: The mission was required to approve the performance management plan,
which includes the performance indicators. USAID guidance notes that a mission has
the authority to approve changes to performance indicators. The Academy for
Educational Development made some revisions to the performance management plan
without obtaining the mission’s formal approval. The problem occurred because the
mission did not fully manage the contractor’s implementation of the project’s activities.
As a result, USAID funds may not have been used for mission-approved activities. As
well, the mission and the contractor were using two different performance management
plans as management tools to monitor the project during its first year of implementation.


The terms of the award required the cognizant technical officer to approve the
performance management plan in writing. Furthermore, according to USAID’s ADS
203.3.4.7, a mission generally has the authority to approve changes to performance
indicators and is responsible for documenting these changes while updating the
performance management plan.

The contractor revised the performance management plan without the mission’s formal
approval. For example, during the first year of implementation of the project, the
contractor added 3 new indicators with no set targets to the performance management
plan without first obtaining the mission’s approval, and then reported on the
achievements of these indicators. Compounding the problem was the fact that the 3
new indicators were under intermediate results 4 and 5, which already have a combined
total of 17 indicators that had no progress data reported during the project’s first year of
implementation.

Another example of a change made to the performance management plan without
mission approval was the omission of the indicator “Total resources leveraged from the
private sector as a result of public/private partnership agreements.” This indicator was in
the original mission-approved performance management plan under intermediate
result 5.

Revisions to the performance management plan without the mission’s approval occurred
because the mission did not fully manage the contractor’s implementation of the


                                                                                         10
project’s activities. The cognizant technical officer for the project stated that he was not
aware that the contractor added three new indicators to the plan after it was approved by
the mission. He learned about the revisions at a meeting between the mission and the
contractor to discuss the indicators and the reporting requirements held on
August 15, 2007—more than a year after the project began.

According to the contractor, the mission approved the addition of the three new
indicators to the performance management plan during the aforementioned August 15
meeting. He added that these indicators emerged as being relevant indicators of project
progress during the project roll-out phase, and it was believed that they succinctly
captured the essence of the respective intermediate results.

Adding new indicators to the performance management plan without formal mission
approval and implementing the activities under these new indicators may result in
USAID funds being diverted from mission-approved activities and not being used for
their intended purposes. The fact that the mission and the contractor were using two
different performance management plans as management tools in implementing the
project during its first year could have caused confusion in the monitoring and reporting
aspects of implementation. To address this finding, this audit makes the following
recommendation.

   Recommendation No. 3: We recommend that USAID/Nepal formally approve the
   performance management plan for the Nepal Social Marketing and Franchise
   Project that results from addressing recommendation no. 1.


Reporting Requirements Were Revised
Without Formal Mission Approval

Summary: Contrary to the contract’s requirement that the Academy for Educational
Development submit annual results reporting on performance management plan
indicators in the plan’s summary table, the contractor revised the reporting requirements
without the mission’s formal approval and did not report on any of the plan indicators.
The contractor believed that the revisions were in line with the discussions it had with
mission officials relating to the reporting of indicators. As a result, the mission did not
manage the performance of the project to achieve the most advantageous results during
its first year of implementation.


USAID/Nepal’s contract for the project requires the contractor to submit to the mission
annual results reporting on performance management plan indicators in the plan’s
summary table with targets for the next 3 years.

The contractor revised the reporting requirements relating to the performance
management plan indicators without obtaining the mission’s formal approval. For
example, the contractor categorized the indicators into core and supplementary
indicators, and reported progress achieved under the core indicators only.
Consequently, the contractor reported the achievements of only 2 of the 30 indicators
relating to family planning and maternal and child health included in the
mission-approved performance management plan. The other achievements reported



                                                                                         11
were for three new indicators (see page 10), operational plan indicators, and subsets of
indicators that were not included in the mission-approved performance management
plan.

The reporting requirements were revised without the mission’s approval because the
contractor believed that the revisions were in line with the discussions it had with mission
officials relating to the reporting of indicators. The contractor stated that it met with
mission officials on August 15, 2007, more than a year after the project began, and both
parties agreed that the core set of indicators would be reported for the project’s first year
of implementation. The other indicators would be classified as supplementary and would
be reported on an ad hoc basis. However, the mission had not formally approved the
changes in reporting.

As a result, the mission did not manage the project’s performance to achieve the most
advantageous results during its first year of implementation. Accordingly, this audit
makes the following recommendation.

   Recommendation No. 4: We recommend that USAID/Nepal require Academy for
   Educational Development to submit to the mission annual results reporting on
   performance management plan indicators in the performance management plan
   summary table, as required by the contract.




                                                                                          12
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Nepal generally agreed with the findings and
recommendations. Based on the Regional Inspector General/Manila’s review of the
mission’s comments, detailed actions, and subsequent supporting documents received,
the audit determined that final actions have been taken on Recommendation Nos. 1, 3,
and 4 and a management decision has been reached for Recommendation No. 2.

To address Recommendation No. 2, USAID/Nepal stated that it is in the process of
preparing and issuing a mission order to implement the performance management plan
review procedures called for in the recommendation.

A determination of final action for Recommendation No. 2 will be made by the Audit
Performance and Compliance Division (M/CFO/APC) upon completion of the planned
corrective action.

USAID/Nepal’s written comments on the draft report are included in their entirety
(without attachments) as appendix II to this report.




                                                                                    13
                                                                             APPENDIX I 



SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted Government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective, which was to determine whether
USAID/Nepal’s health activities were achieving planned results, and what the impact has
been.

The audit covered results achieved in two health activities: (1) Nepal Family Health
Program Phase I from January 1 through December 31, 2007 and (2) Nepal Social
Marketing and Franchise Project from October 1, 2006 through September 30, 2007.
Mission records showed that $33.8 million had been obligated and $31.4 million had been
disbursed as of December 31, 2007, under the first activity. As of September 30, 2007,
$3.8 million and $2.4 million had been obligated and disbursed, respectively, under the
second activity.

Audit fieldwork was conducted from May 22 through June 10, 2008, in the offices of
USAID/Nepal, JSI Research and Training Institute, Inc., and Academy for Educational
Development in Kathmandu and Morang, Nepal, where the audit team visited five activity
sites.

In conducting this audit, we reviewed and assessed the significant internal controls
developed and implemented by the mission to manage and monitor the activities. The
assessment included internal controls related to whether the mission (1) reviewed progress
and financial reports submitted by the implementers, (2) conducted and documented
periodic meetings with the implementers, (3) performed and documented visits to the
activity sites, and (4) developed and implemented policies and procedures to safeguard the
assets and resources of the activities. Further, we determined whether the mission
prepared an assessment of its internal controls and reported it in its Federal Managers’
Financial Integrity Act report for fiscal year 2007.


Methodology
To answer the audit objective, we reviewed (1) the award instruments that the mission
awarded to the implementers, including modifications to these instruments; (2)
performance management plans; (3) annual work plans; (4) progress and financial
reports; and (5) the mission’s Federal Managers’ Financial Integrity Act report for fiscal
year 2007. We also interviewed responsible officials and staff from the mission and the
implementers’ offices.




                                                                                       14
                                                                             APPENDIX I 


To review the activities’ accomplishments reported during the defined audit period, we
verified the accuracy, appropriateness, and sufficiency of the documentation supporting the
reported progress data. We considered every exception we identified as a reportable
condition.




                                                                                        15
                                                                          APPENDIX II 



MANAGEMENT COMMENTS




MEMORANDUM


TO:               Catherine M. Trujillo, Regional Inspector General/Manila,

FROM:             Beth Paige, Mission Director, USAID/Nepal

DATE:             September 12, 2008

SUBJECT:          USAID/Nepal Management Comments on Draft Audit Report of
                  USAID/Nepal’s Health Activities (Report No. 5-367-08-00X-P)

REFERENCE:        Audit Report No. 5-367-08-00X-P, August 15, 2008


USAID/Nepal wishes to thank the Regional Inspector General for the professional
and constructive manner in which this audit was performed. The Mission agrees that
implementation of the audit recommendations will improve the effectiveness of the
Mission’s Health activities and the efficiency of Mission operations.

Based upon the draft audit report and guidance provided by the RIG at the audit exit
conference, the Mission took immediate action to implement the four
recommendations contained in the report. Our comments under Recommendation 1
delineate the specific actions taken to comply with Recommendations 1, 3 and 4. On
the basis of these actions, the Mission requests that these three recommendations be
closed upon issuance of the audit report.

The Mission has also made a Management Decision to prepare and issue a Mission
Order to implement the Performance Management Plan review procedures called for
in Recommendation 2 and is in the process of doing so. The Mission requests that
this Management Decision be accepted upon issuance of the audit report.

Recommendation No. 1: We recommend that USAID/Nepal provide guidance to
the Academy for Educational Development to develop a performance management
plan that is compliant with the requirements for a complete performance


                                                                                       16
                                                                        APPENDIX II 


management plan as contained in USAID’s Automated Directives System 203 and
other USAID guidance.

USAID/Nepal concurs with this recommendation and has taken the actions noted
below to resolve this recommendation, as well as, recommendations three and four.
The USAID Cognizant Technical Officer (CTO) and the Senior Public Health
Technical Advisor had a series of meetings with the Resident Advisor of the
Academy for Educational Development for the AED/N-MARC activity to provide
guidance, and approve the Performance Management Plan (PMP) for AED/N
MARC.

   •	 In late May AED/N-MARC undertook a PMP review process as a result of
      joint meetings with RIG auditors, the USAID CTO and AED/N-MARC staff.

   •	 On June 20, 2008 USAID/Nepal requested AED/N-MARC to provide an
      updated version of the PMP based on the ADS 203 guidance provided by the
      USAID CTO.

   •	 On June 26, 2008 AED/N-MARC submitted a draft PMP which was jointly
      reviewed by AED/N-MARC and USAID.

   •	 On June 27, 2008 USAID/Nepal met with AED/N-MARC to strengthen the
      specific definition of PMP indicators in accordance with the requirements of
      ADS 203. Based on RIG’s preliminary audit findings, USAID/Nepal also
      requested AED/N-MARC to prepare Performance Indicator Reference Sheets
      (PIRS) for each indicator to support the PMP results data.

   •	 On July 3, 2008 AED/N-MARC submitted another draft of the PMP which
      included the recommendations made by USAID/Nepal on June 27, 2008 and
      explained the rationale for the proposed revisions. AED/N-MARC also
      submitted a draft PMP Tracking Sheet that would be used for tracking annual
      progress against the PMP indicators.

   •	 On July 8, 2008 USAID provided email comments on the documents
      submitted on July 3, 2008 by AED/N-MARC. These comments were
      incorporated into the documents prepared by AED/N-MARC for submittal to
      USAID.

   •	 On July 29 AED/N-MARC submitted three documents for approval to
      USAID/Nepal. These documents were: Overview of revisions to N-MARC
      PMP; N-MARC PIRS; and the N-MARC PMP Tracking Sheet.

   •	 On July 31, 2008 USAID/Nepal and AED/N-MARC met to review the three
      documents submitted. USAID provided detailed comments to AED/N
      MARC on the PIRSs to ensure consistency and compliance with ADS 203.



                                                                                     17
                                                                       APPENDIX II 


   •	 On August 4, 2008 the final Performance Management Plan was received by
      USAID from AED/N-MARC.

   •	 On September 9, 2008 the USAID/Nepal CTO provided USAID/Nepal’s
      approval to AED/N-MARC of its PMP.


Based on the actions taken above to address this recommendation, the Mission
requests that this finding be closed upon issuance of the audit report.

Recommendation No. 2: We recommend that USAID/Nepal develop and
implement procedures requiring the Office of Program and Project Development to
review performance management plans submitted by the mission’s contractors and
grantees for compliance with USAID’s Automated Directives System 203, prior to
approval by the cognizant technical officers.

USAID/Nepal concurs in this recommendation and has made a Management Decision
to prepare and issue a Mission Order to implement the Performance Management
Plan review procedures called for in this recommendation and is in the process of
doing so.

The Mission requests that this Management Decision be accepted upon issuance of
the audit report.

Recommendation No. 3: We recommend that USAID/Nepal formally approve the
performance management plan for the Nepal Social Marketing and Franchise
Project that results from addressing recommendation no. 1.

As delineated in the response to Recommendation No. 1, the Mission has provided
comprehensive guidance to AED/N-MARC, has worked with AED to ensure that its’
PMP meets ADS 203 requirements and has provided formal approval of the PMP.

Based on the actions taken above to address this recommendation, the Mission
requests that this finding be closed upon issuance of the audit report.

Recommendation No. 4: We recommend that USAID/Nepal require Academy for
Educational Development to submit to the mission annual results reporting on
performance management plan indicators in the performance management plan
summary table, as required by the contract.

As noted in the detailed response to Recommendation No. 1 in approving AED/N
MARC’s Performance Management Plan, USAID/Nepal required that AED/N
MARC incorporate the PMP into its annual work plans. Specifically, USAID/Nepal
required AED/N-MARC to prepare and support their semi-annual and annual report
narrative with the PMP indicator results. The USAID/Nepal CTO will monitor




                                                                                    18
                                                                   APPENDIX II 


implementation of AED/N-MARC’s work plans to ensure PMP indicators are
reported by AED/N-MARC in their semi-annual and annual reports to USAID.

Based on the actions taken above to address this recommendation, the Mission
requests that this finding be closed upon issuance of the audit report.




                                                                               19
                                                                                                   APPENDIX III

                            List of 15 Critical Indicators and Results of Review
Indicator No.




                    Selected Program1                            1/1/07--12/31/07   OIG Test     Percent
                         Indicators                Target             Actual        Results     Achieved   Target Met
    1           Commodities available at
                health facilities                   75%               78%             78%        104%         Yes
    2           Commodities available at
                community level                    60%                61%            61%         102%         Yes
    3           Pneumonia treatment               272,966            242,311        242,311      89%       Partly Met
    4           Couple Years of Protection
                in Core Program Districts         815,252            774,248        774,132       95%      Partly Met
    5           Couple Years of Protection
                (National)                       1,677,000          1,564,819       1,564,853     93%      Partly Met
    6           Vitamin A supplementation
                coverage                           ≥ 90%              98%             98%        109%         Yes
Indicator No.




                     Selected Project2                           10/1/06--9/30/07   OIG Test     Percent
                         Indicators                Target             Actual        Results     Achieved   Target Met
    7           Annual Couple Years of
                Protection, Private Sector        284,073            289,835         281,793     99%
                                                                                                              Yes
                ● Oral contraceptives              11%                11%             11%        100%
                ● Condoms                          10%                17%             17%        170%
    8           Number and percentage of
                outlets offering high quality      End-of­
                family planning products        project target    None reported       None       None
                and services                       End-of­                                                 Could not
                                                project target    None reported       None       None      determine3

                                                   End-of­
                                                project target    None reported       None       None
    9           Percent of target groups
                who recall hearing or
                seeing specific family
                planning or reproductive
                health messages from N­
                MARC related                       End-of­                                                 Could not
                communication campaign          project target    None reported       None       None      determine3
10              Impact of N-MARC
                interventions on the "Total
                Market" for maternal and
                child health products and                                                                  Could not
                services                            None             937,977        937,977      None      determine




                                                                                                           20 

                                                                                                 APPENDIX III 

Indicator No.

                    Selected Project2
                       Indicators

                                                                 10/1/06--9/30/07   OIG Test    Percent    Target
                                                   Target             Actual        Results    Achieved     Met
11              Number and percentage of
                outlets offering high-quality
                maternal and child health          End-of­                                                Could not
                products and services           project target    None reported      None       None      determine3
12              Percentage of franchised
                health providers that meet
                minimum quality of care
                standards                           50%               59%             59%       118%         Yes
13              Percent of target groups
                who recall hearing or
                seeing specific maternal
                and child health messages
                from N-MARC related
                behavior change
                intervention campaigns              50%           None reported       0%         0%          No
14              Project objectives, results,
                and targets met or                                                                        Could not
                accomplished                        None          None reported      None       None      determine
15              Number and/or quality of
                policy incentives created to
                increase private sector
                participation in
                reproductive health or
                family planning service                                                                   Could not
                delivery                            None          None reported      None       None      determine

       1        Nepal Family Health Program Phase I
       2        Nepal Social Marketing and Franchise Project
       3        Annual targets could not be determined as only end-of-project
                targets were set.




                                                                                                            21 

U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
